DOE/IG-0459



         AUDIT
        REPORT


                                 UNCLASSIFIED COMPUTER
                                  NETWORK SECURITY AT
                                  SELECTED FIELD SITES




                                         FEBRUARY 2000




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                               February 15, 2000


MEMORANDUM FOR THE SECRETARY

FROM:              Gregory H. Friedman (Signed)
                   Inspector General

SUBJECT:           INFORMATION: Report on "Unclassified Computer Network Security at Selected Field
                   Sites"


BACKGROUND

Improving security for unclassified information systems is one of the top issues facing government organizations
today. This issue developed as Federal agencies migrated from a closed architecture, limited-access, mainframe
environment to a web-based, client/server architecture, where literally the world may access government systems.
The U.S. General Accounting Office (GAO) confirmed this reality in a series of reports to the Congress culminating
in the designation of information system security as a “new Government-wide high-risk area.”

As recognized by GAO and other Federal standard setting bodies, organizations should adopt a risk-based
approach to improving unclassified computer network security. The cost and benefit of controls, as well as the
severity, probability, and extent of potential harm, should be considered when designing security improvements.
The cost of improvements should not exceed expected benefits, and should be appropriate and proportionate to
the value and degree of reliance on the information protected.

Complex-wide, the Department of Energy (Department) expends a significant portion of its budget to maintain a
series of interconnected unclassified networks and information technology systems. In both Fiscal Years (FY)
1998 and 1999, the Department spent over $1.5 billion each year (almost 10 percent of its total budget) on
information technology resources, including financial management systems. Organizations within the Department
have numerous interconnected network systems that are utilized to meet day-to-day mission requirements including
financial, security, and/or research activities. Connection of these networks to systems, such as the Energy and
Sciences Network and the Department of Energy Business Network, permit the exchange of data between virtually
all of the Department’s sites and components. The objective of the audit was to determine whether the internal
controls employed for certain Department and contractor operated information systems were protecting such
systems from malicious attack by internal and external parties.
                                                           2

RESULTS OF AUDIT

All six Departmental sites audited had significant internal or external weaknesses that increased the risk that their
unclassified computer networks could be damaged by malicious attack. Specifically, each site had network
vulnerabilities involving:

        §    Poor password management – Weak, non-existent or default passwords for regular users, network
             administrators, and security personnel were present on virtually all of the networks reviewed.

        §    Unnecessary access to certain powerful computer services and weak configuration management -
             Users had access to a number of services not specifically required for performance of their duties. File
             transfer and remote access services had not been configured to reduce vulnerabilities or were not
             required for network operation.

        §    Outdated software with known security vulnerabilities and firewall configuration problems – Operating
             system and application software with known exploitable weaknesses had not been replaced with
             updated versions. Firewall configuration problems at three sites inappropriately permitted certain traffic
             in and out of the networks.

Even though the Department became aware of a number of network security problems in recent years, it did not
issue specific network security requirements until recently. In the absence of specific Departmental requirements,
sites had not implemented a comprehensive network security program designed to test for password or
configuration management issues or other internal and external vulnerabilities. The problems observed increased the
risk that the Department’s unclassified computing and network resources could be penetrated by unauthorized or
malicious knowledgeable insiders and external “hackers.” Unauthorized users could obtain information that could
permit them to damage or disable Departmental networks by the alteration, deletion, or theft of sensitive data.
Systems were also susceptible to widespread damage that could be caused by the installation of malicious software.

MANAGEMENT REACTION

The Chief Information Officer (CIO) agreed, in principle, with the recommendations in this report. Management
acknowledged that sites have taken action to eliminate actual vulnerabilities identified during the audit, utilizing a
risk-based approach. The CIO stated that correction of vulnerabilities, in general, is a goal and that management is
working to consistently and adequately implement Departmental Notice 205.1, “Unclassified Cyber Security
Program.” However, management indicated that there was some concern that the high-risk vulnerabilities identified
during audit testing were, in reality, false positives.

With regard to our recommendation on performance measures, the CIO indicated that a set of metrics is being
developed to measure the effectiveness of the Cyber Security Program (CSP) across the Department. From these
metrics, a baseline will be created and implemented to demonstrate improvement in the Department’s CSP.

Attachment

cc: Deputy Secretary
    Under Secretary
UNCLASSIFIED COMPUTER NETWORK SECURITY AT SELECTED
FIELD SITES


TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..................................................................1

               Conclusions and Observations................................................... 2


               Unclassified Computer Network Security at Selected
               Field Sites

               Details of Finding ...............................................................................4

               Recommendations and Comments ..................................................8


               Appendices

               Scope and Methodology ..........................................................10

               Prior Reports.............................................................................12
OVERVIEW

INTRODUCTION AND   Improving security for unclassified information systems is one of the top
OBJECTIVE          issues facing government organizations today. This issue developed as
                   Federal agencies migrated from a closed architecture, limited-access,
                   mainframe environment to a web-based, client/server architecture, where
                   literally the world may access government systems. The U.S. General
                   Accounting Office (GAO) confirmed this reality in a series of reports to the
                   Congress culminating in the designation of information system security as a
                   “new Government-wide high-risk area.”

                   As recognized by GAO and other Federal standard setting bodies,
                   organizations should adopt a risk-based approach to improving unclassified
                   computer network security. The cost and benefit of controls, as well as the
                   severity, probability, and extent of potential harm, should be considered
                   when designing security improvements. The cost of improvements should
                   not exceed expected benefits, and should be appropriate and proportionate
                   to the value and degree of reliance on the information protected.

                   Complex-wide, the Department of Energy (Department) expends a
                   significant portion of its budget to maintain a series of interconnected
                   unclassified networks and information technology systems. In both Fiscal
                   Years (FY) 1998 and 1999, the Department spent over $1.5 billion each
                   year (almost 10 percent of its total budget) on information technology
                   resources, including financial management systems. Organizations within the
                   Department have numerous interconnected network systems that are utilized
                   to meet day-to-day mission requirements including financial, security, and/or
                   research activities. Connection of these networks to systems, such as the
                   Energy and Sciences Network and the Department of Energy Business
                   Network, permit the exchange of data between virtually all of the
                   Department’s sites and components.

                   The increasing reliance of Federal Government agencies on interconnected
                   systems and electronic data has increased the risk of fraud, inappropriate
                   disclosure of sensitive data, and disruption of critical operations and services.
                   Various audit reports issued by Federal agencies from March 1996 through
                   August 1998 identified significant information security weaknesses. Poor
                   control over access to sensitive data and systems was a widely reported
                   weakness. Access weaknesses provide opportunities for an individual or
                   group to disrupt agency operations by inappropriately modifying or
                   destroying sensitive data or programs, obtaining or disclosing confidential
                   information, or performing other malicious or unauthorized operations.



                                                                    Introduction and Objective
Page 1
                  Network vulnerability and penetration testing assesses whether an
                  organization’s information technology security countermeasures are effective
                  in preventing compromises. Sometimes referred to as “ethical” or “white-hat”
                  hacking, penetration testing is the use of “hacker tools” and techniques and
                  other security testing tools, within a methodical framework, to provide a “real-
                  life” test of systems for vulnerabilities.
                  Penetration testing can counter threats by identifying technical vulnerabilities in
                  networks and specific systems as well as weaknesses in security policies,
                  standards, and procedures.

                  The objective of the audit was to determine whether the internal controls
                  employed for certain Department and contractor operated information
                  systems were protecting such systems from malicious attack by internal and
                  external parties. The audit was performed as part of the Office of Inspector
                  General’s (OIG) continuing effort with respect to the Department’s
                  compliance with the Government Performance and Results Act (GPRA) of
                  1993.

CONCLUSIONS AND   All six Departmental sites audited had significant internal or external
OBSERVATIONS      weaknesses that increased the risk that their unclassified computer networks
                  could be damaged by malicious attack. Each site had internal network
                  vulnerabilities involving poor password management, unnecessary access to
                  certain powerful computer services, weak configuration management, and/or
                  outdated software with known security problems. Externally, we observed
                  problems with firewall configuration and virtually all of the same problems
                  observed during internal network testing, although to a lesser extent. Even
                  though the Department became aware of a number of network security
                  problems in recent years, it did not issue specific network security
                  requirements until recently. In the absence of specific Departmental
                  requirements, sites had not implemented a comprehensive network security
                  program designed to test for password or configuration management issues or
                  other internal and external vulnerabilities. The problems observed increased
                  the risk that the Department’s unclassified computing and network resources
                  could be penetrated by unauthorized or malicious knowledgeable insiders and
                  external “hackers.” Unauthorized users could obtain information that could
                  permit them to damage or disable Departmental networks by the alteration,
                  deletion, or theft of sensitive data. Systems were also susceptible to
                  widespread damage that could be caused by the installation of malicious
                  software.




                                                               Conclusions and Observations
Page 2
         The Chief Information Officer (CIO) concurred, in principle, with the
         recommendations made in this report.

         Management should also consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.


                                                       (Signed)
                                               Office of Inspector General




Page 3                                           Conclusions and Observations
UNCLASSIFIED COMPUTER NETWORK SECURITY AT SELECTED FIELD SITES
Information Resources are   Significant internal or external weaknesses existed on selected systems and
at Risk                     devices attached to the computer networks at the six Department sites
                            audited.1 These weaknesses in automated security controls increased the risk
                            that the site computer networks could be damaged by malicious attack. Each
                            site had internal network vulnerabilities involving poor password management,
                            unnecessary access to certain powerful computer services, weak
                            configuration management, and/or outdated software with known security
                            problems. Externally, we observed problems with firewall configuration and
                            virtually all of the same problems noted during internal network testing,
                            although to a lesser extent.

                                                           Password Management

                            Password management problems could adversely affect network operation
                            and security at each of the locations audited. To varying degrees, each site
                            had problems with regular user passwords, those used by network
                            administrators and security personnel, or passwords used to access certain
                            computer services such as file transfer routines. Accounts or services without
                            passwords, or those with default passwords, were present on eight of the nine
                            computer networks audited at the six sites visited. Passwords that were
                            identical to the user identification for certain workstations and servers were
                            also observed. Weaknesses, such as those observed, could permit unfettered
                            access to virtually all system resources and increase the risk of network
                            compromise or shutdown.

                                                 Services and Configuration Management

                            All sites audited had security vulnerabilities associated with unnecessary
                            services and configuration management. Certain services involving file sharing
                            and transfer were active even though they were not required by the user.
                            Other file transfer and remote access services had not been properly
                            configured or were not specifically required for system operation.
                            Unnecessary services/configuration management issues can arise when
                            changes are made to network structure, or when a system or device is first
                            attached to a network. Each device or system comes initially configured with
                            certain services that may not be needed and certain default parameters that
                            may not be secure. Therefore, as a general rule, computing devices must be
                            tailored to fit the network in terms of not only functionality, but also security to
                            mitigate vulnerabilities.
                            _____________________________
                            1
                              For security reasons, specific information as to location and type of vulnerability has
                            been omitted from the report. Details regarding our finding were provided to
                            management at each of the sites audited.


Page 4                                                                                      Details of Finding
                                            Software Security Vulnerabilities and Firewalls

                             Outdated versions of software with known security vulnerabilities and
                             firewall installation or configuration problems were also present on the
                             networks at the sites visited. We found outdated versions of operating
                             system software on devices that route and filter network traffic. Application
                             software with known security vulnerabilities was also observed. Operating
                             system and application software can contain inherent or hacker exploitable
                             vulnerabilities, which, if not corrected, could allow unauthorized access to
                             systems and devices. Despite Departmental recognition that the effective use
                             of firewalls should be considered the starting point for enhancing unclassified
                             network security, one site did not have a firewall and another had not
                             installed a previously procured firewall. At least three networks at the sites
                             reviewed had firewall configuration problems that inappropriately allowed
                             certain traffic in and out of the networks.

Federal and Departmental     Office of Management and Budget Circular A-130 requires Federal agencies
Directives Require           to establish a level of security for all information systems that is
Information Resource         commensurate with the risk and magnitude of the harm that would result from
Security                     the loss, misuse or unauthorized access to, or modification of the information
                             contained in these information systems. Other Federal and Departmental
                             directives require that procedures be developed and implemented to prevent
                             misuse and abuse of unclassified computing or information technology
                             resources.

                             Presidential Decision Directive (PDD) 63, issued on May 22, 1998,
                             recognized that additional attention to cyber security and protection of the
                             Nation’s critical infrastructure was required. The directive recognized that a
                             single network compromise can affect a multitude of systems. It also
                             required Federal agencies to work to reduce exposure to security threats
                             and significantly increase security for government systems by the year 2000.

                             Even though awareness of network security problems increased substantially
Despite Awareness of
                             in the last several years, the Department did not issue specific network
Network Security Problems,
                             security requirements until recently. Awareness increased during 1997 and
the Department was Slow to
                             1998, as the Office of Oversight issued a series of reports demonstrating that
Act
                             networks throughout the Department were vulnerable to attack.
                             Departmental security officials also reported that penetrations and “hacking”
                             incidents escalated and less attention was paid to network security during
                             that same period. In addition, the Department identified unclassified
                             computer security as a “Departmental Challenge” in the FY 1998
                             Accountability Report. The Accountability Report pointed out that the

Page 5                                                                                 Details of Finding
                               system of controls was not operating effectively and did not provide
                               reasonable assurance that assets or resources were safeguarded against
                               fraud, waste, abuse, and mismanagement. Despite the increase in
                               awareness, the Department did not issue specific network security
                               requirements until July 1999. In the absence of specific Departmental
                               guidance, sites and programs developed and implemented network security
                               programs with varying levels of rigor.

                               While each of the sites audited had developed and implemented certain
                               policies, procedures and physical controls to protect computer systems,
                               comprehensive network security programs were not in place. Network
                               security programs were not consistent from site to site, and some programs
                               omitted tests for password management and control, configuration
                               management, or other internal and external vulnerability tests. Network
                               security scanning or testing was either informal and/or infrequent, or the
                               testing tools utilized were insufficient for performing comprehensive testing of
                               the network environment. Baselines and standard parameter settings for
                               conducting tests of network security had largely not been formally
                               established.

                               In addition, we found that specific performance measures and objectives for
                               network security had not been established. Even though the Department had
                               designated unclassified computer security as a “Departmental Challenge”
                               during the FY 1998 Federal Managers’ Financial Integrity Act process,
                               specific goals or measures had not been established as required by GPRA.
                               In the absence of such goals, responsible site personnel were not giving
                               sufficient priority to addressing computer network security concerns. For
                               instance, site personnel were generally not required to test for network
                               vulnerabilities and limited their security functions to updating computer
                               security plans and reporting on computer application recertifications.

Vulnerabilities Could Impact   Exploitation of the network security weaknesses described in this report
Unclassified Information       could lead to a potentially serious and costly disruption of the Department’s
Security for the Entire        operations. Unauthorized or malicious individuals (“hackers”) could modify
Department                     or destroy sensitive data or programs, steal or improperly disclose
                               confidential information, or perform other malicious or unauthorized
                               operations. A knowledgeable insider or an external “hacker,” using tools
                               readily available on the Internet, could exploit network interconnectivity by
                               using one vulnerable system to gain access to similar systems or devices on
                               networks throughout the complex. The potential for harm is substantial in
                               that many of the Department’s interconnected systems are utilized to meet



Page 6                                                                                    Details of Finding
         day-to-day mission requirements such as financial, security, and/or research
         activities. Once a network is penetrated, attackers could potentially do harm
         to systems at other Departmental sites.

         Near the end of our audit field work, the Department launched a new
         initiative designed to improve network security across the complex. On July
         26, 1999, the Department published Departmental Notice 205.1,
         “Unclassified Cyber Security Program” (Notice). The purpose of the Notice
         was to protect the Department’s distributed network environment and
         require a contemporary and proactive approach to computer security.
         Concurrent with the issuance of this Notice, the Department embarked on a
         complex-wide program to provide additional training for network system
         administrators and security personnel, raise user awareness of security
         issues, and generally improve network security. The Notice specifically
         required each site and program element to improve network security by
         developing specific computer/network security plans, actions, policies, and
         procedures.

         This new directive should greatly advance the Department’s network security
         position, mitigate the problems specified in this audit report, and generally
         enhance its ability to protect cyber related critical infrastructure. However,
         the specific vulnerabilities disclosed during the audit and separately conveyed
         to site managers need to be addressed. To aid in this effort, detailed action
         plans, with associated performance measures, need to be developed. As an
         interim solution, each of the sites visited has initiated action to correct specific
         vulnerabilities identified in this report.

         Meaningful and measurable performance measures, with specific achievable
         goals, are essential to ensuring the success of the Department’s network
         security improvement initiative. Without specific performance standards or
         measures, the Department cannot ensure that the goal of PDD 63, to swiftly
         eliminate any significant vulnerability to cyber attacks on our computer
         networks, will be achieved. In addition, the Department cannot ensure that
         the PDD 63 requirement that any interruption or manipulation of computer
         networks be brief, infrequent, manageable, and minimally detrimental.

         As the Department moves forward with network security improvements, it
         must ensure that the cost of improvements, in both monetary and non-
         monetary terms, does not exceed expected benefits. As emphasized by the
         new Notice, network security improvements (and associated performance
         measures) should be developed and implemented using a risk-based



Page 7                                                                Details of Finding
                      approach. Performance goals should incorporate the concept that protection
                      should be appropriate and proportionate to the value and degree of reliance
                      on systems. The cost and benefit of controls, as well as the severity,
                      probability, and extent of potential harm, should be considered when
                      designing meaningful performance measures.

RECOMMENDATIONS       The new Notice should enable the Department to better ensure that controls
                      are in place to safeguard information and technology resources from
                      unauthorized access. However, the CIO, in conjunction with Lead Program
                      Secretarial Officers and Managers of various field activities, commensurate
                      with a risk-based approach, needs to:

                      1. Resolve to fully implement the new Notice, and ensure that the
                         security vulnerabilities disclosed during this audit are corrected; and

                      2. In accordance with GPRA, establish specific goals and performance
                         measures for improving the level of unclassified computer security
                         relating to network operations.

MANAGEMENT REACTION   The CIO agreed, in principle, with the recommendations in this report.
                      Management acknowledged that sites have taken action to eliminate actual
                      vulnerabilities identified during the audit, utilizing a risk-based approach. The
                      CIO stated that correction of vulnerabilities, in general, is a goal and that
                      management is working to consistently and adequately implement the new
                      Notice. However, management indicated that there was some concern that
                      the high-risk vulnerabilities identified during audit testing were, in reality, false
                      positives.

                      With regard to our recommendation on performance measures, the CIO
                      indicated that a set of metrics is being developed to measure the
                      effectiveness of the Cyber Security Program (CSP) across the Department.
                      From these metrics, a baseline will be created and implemented to
                      demonstrate improvement in the Department’s CSP.

AUDITOR COMMENTS      We consider the CIO’s comments and site actions generally responsive to
                      the issues addressed in this report. However, we do not agree that any
                      significant portion of the high-risk vulnerabilities identified during audit testing
                      were false positives. The vulnerabilities were discovered using tools that are
                      commonly employed by information technology and security professionals,
                      including GAO, the Department's Computer Incident Advisory Capability
                      and the Office of Oversight. These tools are routinely used by the above



Page 8                                                   Recommendations and Comments
         organizations to survey network security at certain Department sites and are
         considered to be reliable.

         Although we endeavored to do so, we may have been unable to definitively
         eliminate all false positives from the report because several of the sites
         audited elected not to provide detailed responses to our queries. At least
         one site indicated that it would not devote the time and effort necessary to
         review each of the reported vulnerabilities. Another site acknowledged that
         our audit disclosed a number of vulnerabilities and that they were working to
         correct them, but did not respond to our repeated requests to identify false
         positives.




Page 9                                    Recommendations and Comments
Appendix 1
SCOPE         The audit work was performed between September 1998 and September
              1999. We performed a vulnerability assessment of computing network
              operations with the focus being on segments containing financial applications.
              Specifically, we assessed the automated system security controls relating to
              network operations to determine the effectiveness of parameter settings and
              uncover weaknesses in access controls for safeguarding information
              resources from unauthorized internal and external sources. The audit did not
              include an overall review of general controls, in such areas as application
              software development and change controls, service continuity, or user
              authorizations. In addition, our work did not include a determination of
              whether vulnerabilities found were actually exploited and used to circumvent
              the existing controls.

METHODOLOGY   To accomplish our objectives, we obtained and reviewed applicable
              directives pertaining to security of information and information technology
              resources, such as OMB Circular A-130, GPRA, PDD 63, Departmental
              Notice 205.1, Departmental Order 471.2A “Information Security
              Program,” Departmental Order 1360.2B “Unclassified Computer Security
              Program,” Federal Information Processing Standards Publication 191
              “Guidelines for the Analysis of Local Area Network Security,” and
              Executive Order 13011 “Federal Information Technology.” We also
              reviewed reports by the OIG, the Office of Oversight, operations offices and
              various internal groups. Officials and staff were interviewed at the
              Department’s Headquarters locations, operations offices, and contractor
              operated facilities.

              We gained an understanding of controls surrounding network and computing
              operations, such as communication services and operating systems, through
              inquiry, observation, and document inspection, and noted the existence of
              controls.

              We did not rely on computer processed data generated by the sites audited
              to satisfy our audit objectives. We did, however, use a number of
              computer-assisted audit tools to perform probes of various networks and
              devices. We validated the results of our scans by confirming the weaknesses
              disclosed with responsible site personnel.

              The audit was conducted in accordance with generally accepted
              Governmental auditing standards for performance audits and included tests
              of internal controls and compliance with laws and regulations to the extent




Page 10                                                     Scope and Methodology
          necessary to satisfy the audit objectives.

          Because our review was limited, it would not have necessarily disclosed all
          internal control deficiencies that may have existed. Also, projection of any
          evaluation of the structure to future periods is subject to the risk that
          procedures may become inadequate because of changes in conditions or that
          the degree of compliance with policies or procedures may deteriorate. An
          exit conference was held with CIO representatives on January 20, 2000.




Page 11                                                   Scope and Methodology
Appendix 2



                       PRIOR OFFICE OF INSPECTOR GENERAL REPORTS




•   Audit of Departmental Integrated Standardized Core Accounting System (DISCAS) Operations at
    Selected Field Sites, Office of Inspector General Report No. AP-FS-97-02, dated June, 1997. The report
    pointed out that some weaknesses existed in the general and application controls for DISCAS that could
    adversely affect the reliability of data processed through the system.

•   Audit of the ADP General Controls at Idaho National Engineering and Environmental Laboratory,
    Office of Inspector General Report No. CR-FS-L-98-01, dated February 1998. The report stated that,
    although general controls had been established for ensuring that application controls could not be rendered
    ineffective by circumvention or modification, further enhancements were needed to ensure proper security over
    sensitive computer systems and data.

•   Audit of the ADP General Controls at Oak Ridge Complex, Office of Inspector General Report
    No. CR-FS-L-98-02, dated February 1998. The report stated that, although general controls had been
    established for ensuring that application controls could not be rendered ineffective by circumvention or
    modification, further enhancements were needed to ensure proper security over computer systems and data.

•   Report on Matters Identified at the Oakland Operations Office During the Audit of the Department of
    Energy’s Consolidated Fiscal Year 1998 Financial Statements, Office of Inspector General Report
    No. WR-FS-99-04, dated May 1999. The report stated that, several networks and various network
    components were not adequately protected and were vulnerable to unauthorized access. The OIG concluded
    that strengthening was needed in computer network security.

•   Management Report on Audit of the Department of Energy’s Consolidated Financial Statements for
    Fiscal Year 1998, Office of Inspector General Report No. CR-FS-99-01, dated June 1999. The report
    pointed out that the network backbone and various network components were not adequately protected and
    were vulnerable to unauthorized access and malicious attack. The OIG concluded that, without strengthening
    computer network security, weaknesses could result in breaches in the security of data and programs.

•   Matters Identified at the Savannah River Operations Office During the Audit of the Department’s
    Consolidated Fiscal Year 1998 Financial Statements, Office of Inspector General Report
    No. ER-FS-99-03, dated May 1999. The report pointed out that, although policies, procedures and physical
    controls to protect computer programs and data files had been implemented, certain vulnerabilities existed on
    selected systems and devices. The OIG concluded that, without improvements in security controls, risk is
    increased for unauthorized access to the computer network.




Page 12                                                                                           Prior Reports
                                                                                    IG Report No. :DOE/IG-0459

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or
you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:


                        U.S. Department of Energy Office of Inspector General Home Page
                                             http://www.ig.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
